OIG Investigative Reports, Memphis TN April 21, 2010 - Cosmetology School Owners Charged in Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Attorney Lawrence J. Laurenzi
Western District of Tennessee
CONTACT: LEIGH ANNE JORDON
PHONE: (901) 544-4231
FAX: (901) 544-4230
FOR IMMEDIATE RELEASE
April 21, 2010
www.usdoj.gov/usao/tnw
Charges Include Conspiracy, Wire Fraud, Embezzlement, and Obstruction of Justice
Memphis, TN- Penny Burns, 43 of Memphis, and Ruby Klyce, 56 of Sardis, Mississippi have been charged in a 14 count federal indictment, announced Lawrence J. Laurenzi, United States Attorney for the Western District of Tennessee.  They are charged with one count of Conspiracy to Defraud, 10 counts of Wire Fraud, one count of Embezzlement of Title IV Educational Funds, one count of Theft of Government Funds and one count of Obstruction of Justice.
Burns and Klyce were the CEO and Executive Director, respectively, for HD Adcock and Associate, Inc. (HDAA), a corporation of cosmetology schools operating at nine locations between Memphis, Jackson, and Nashville, Tennessee and Charlotte, Greenville, Winston-Salem, and Durham, North Carolina.   As a proprietary cosmetology school, HDAA was funded mainly through grants and loans provided, administered, or reinsured by the United States Department of Education.
According to the Indictment, between June 2006 and January 2009, Burns and Klyce devised a scheme and defrauded the Department of Education approximately $464,957.  Burns and Klyce allegedly were responsible for certifying hours for student attendance when students, in fact, were not in attendance and, therefore, HDAA received reimbursement funds which were not due to them.  The indictment further alleges that by falsely certifying student attendance, the defendants failed to return funds to the Department of Education for students who had withdrawn or dropped out, and HDAA retained funds from Pell Grants and Title IV financial aid to which it was not entitled.   In addition to falsifying attendance records, the defendants allegedly falsified GED certificates for a number of students so that those students would appear eligible for financial aid when, in fact, they were not.
Count One carries a penalty of up to five years in federal prison.  Counts 2-11 carry penalties of up to 20 years; Count 12 carries a penalty of up to 10 years in prison; Counts 13 and 14 carry penalties of up to five years in prison.
This case was investigated by the U. S. Department of Education-Office of Inspector General, Federal Bureau of Investigation, and Internal Revenue Service Criminal Investigation.  Assistant United States Attorney Justin Bailey is handling the prosecution for the government.
Note:  Charges brought against a person through a Complaint or an Indictment are accusations only.  That person is presumed innocent until and unless proven guilty.
Top
Printable view
Last Modified: 04/26/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov